OIG Audit Report 02-25
Office of Justice Programs
Annual Financial Statement
Fiscal Year 2001
Report No. 02-25
July 2002
Office of the Inspector General
COMMENTARY AND SUMMARY
The Office of Justice Programs (OJP), a component of the United States Department of Justice, consists of five bureaus - the Bureau of Justice Assistance, the Bureau of Justice Statistics, the National Institute of Justice, the Office of Juvenile Justice and Delinquency Prevention, and the Office for Victims of Crime - and six program offices - the Office of the Police Corps and Law Enforcement Education, the Corrections Program Office, the Drug Courts Program Office, the Executive Office of Weed and Seed, the Violence Against Women Office, and the Office for State and Local Domestic Preparedness.  OJP works through its bureaus and offices to administer federal grants and form partnerships among federal, state, and local government officials in order to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims by establishing and supporting various programs aimed at improving the overall effectiveness of the criminal justice system.
This audit report contains the financial statements of OJP for the fiscal year (FY) ended September 30, 2001 and 2000.  Under the direction of the Office of the Inspector General (OIG), KPMG LLP performed the audit, which resulted in an unqualified opinion.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  For FY 2000, OJP also received an unqualified opinion on its financial statements (OIG Report 01-22).
OJP has continued making improvements in its ability to meet federal financial reporting requirements; however, there are areas that still warrant management attention.  While the auditors did not report any material weaknesses for OJP, they reported three reportable conditions related to OJP's internal controls.  The auditors identified the need for improvements with regard to property management and reporting.  OJP had not performed a physical inventory and reconciliation of its capital and non-capital property since FY 1999.  Additionally, OJP lacked the controls and policies needed to ensure the integrity of the data in the property system.
The auditors also noted that OJP's Office of Budget and Management Services (OBMS) needs to refine the management discussion and analysis section of the financial statements to ensure that OJP's performance and financial data is in compliance with reporting standards.  Finally, the auditors noted that access controls for electronic data processing need improvement.